TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Positive Steps Have Been Taken to Enhance
                the Sharing of Information Between Federal
                Agencies, but Additional Actions Are Needed



                                         August 31, 2007

                              Reference Number: 2007-30-168




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 31, 2007


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Positive Steps Have Been Taken to Enhance the
                             Sharing of Information Between Federal Agencies, but Additional
                             Actions Are Needed (Audit # 200630040)

 This report presents the results of our review of the Internal Revenue Service (IRS)
 FedFed Program. The overall objective of this review was to determine whether the
 Small Business/Self-Employed (SB/SE) Division FedFed Program is meeting its stated
 program goals and objectives. We initiated this review at the request of the Commissioner,
 SB/SE Division.

 Impact on the Taxpayer
 The IRS has recognized the need to collaborate with other Federal Government agencies to
 leverage resources and further its strategic goals. The sharing of information creates the
 potential to improve tax administration and help other Federal Government agencies achieve
 their goals. The IRS has a history of establishing relationships with Federal Government
 agencies and reported it has over 100 existing agreements. The FedFed Program was created to
 develop and manage current and future relationships with other Federal Government agencies.
 Although the FedFed Program has had several significant achievements, some goals of the
 Program remain incomplete because some key tasks have not been accomplished.
                Positive Steps Have Been Taken to Enhance the Sharing of
                  Information Between Federal Agencies, but Additional
                                  Actions Are Needed



Synopsis
The IRS recognized the need for partnering with other Federal Government agencies. Over the
years, the IRS has had experience in participating with other Federal Government agencies in a
variety of data-sharing initiatives and programs designed to exchange data, reduce taxpayer
burden, increase compliance, provide disaster assistance, etc. Many of these initiatives or
projects were part of longstanding agreements. However, until recently, there was no formal,
agency-wide coordination of these relationships, and no established structure was in place. To
address this issue, the IRS approved the FedFed Program for implementation.
Progress has been made in achieving the objectives of the FedFed Program since its inception in
March 2006. A FedFed Council was established to provide strategic guidance and to assist in the
rollout of the new Program. In addition, FedFed Program instructor and student guides were
created; a template was created for IRS employees to submit initiatives for FedFed Program
consideration; a Program team charter was developed; and meetings were held with several
Federal Government agencies, resulting in new agreements. The Council developed an informal
communication and action plan that identifies tasks to be accomplished.
However, the IRS needs to address several issues to ensure all of the objectives of the
FedFed Program are accomplished. Complete and accurate databases of current Federal
Government initiatives and associated contacts in other Federal Government agencies need to be
developed because they are vital to ensure projects with other agencies are properly coordinated
and monitored. As of April 2007, the IRS had not completed a verification and review of the
existing database of FedFed Program initiatives to ensure its completeness and accuracy. Also,
the database being used does not contain a field to enter the reason an initiative was rejected; this
key element should be included.
In addition, the current strategy to communicate the existence and objectives of the
FedFed Program needs to be improved. Future initiatives will originate from either IRS
operating divisions or other Federal Government agencies. Because the Program’s future
success is heavily dependent on these groups, communication with them needs to be emphasized.
The current communication plan needs to be developed further to inform both internal and
external stakeholders of the FedFed Program and to solicit participation in the Program. While
the IRS had developed a communication plan that included many specific goals and objectives,
the plan did not contain key elements to ensure timely completion of tasks, accountability, and
followup procedures for action items not completed.
Finally, simplification of the initial application process may encourage more ideas for initiatives.
The time and resources necessary to receive initial consideration of a FedFed Program initiative
may be precluding the development of new initiatives. In many instances, a preliminary
screening of an idea for a new initiative may reveal factors preventing further development
(e.g., disclosure issues regarding tax information, incompatibility of information systems

                                                                                                    2
               Positive Steps Have Been Taken to Enhance the Sharing of
                 Information Between Federal Agencies, but Additional
                                 Actions Are Needed


between two Federal Government agencies, or insufficient funds available in the operating
budget). However, an employee or unit within an IRS operating division with an idea for a
FedFed Program initiative must currently prepare and submit all pertinent parts of the
application.

Recommendations
The Deputy Commissioner for Services and Enforcement should follow up to make sure each
IRS division provides updates to ensure the FedFed Program database is complete and accurate.
The FedFed Program Manager should ensure all key data elements are included in the database.
The Commissioner, Small Business/Self-Employed Division, should further develop the
communication plan to inform both internal and external stakeholders of the FedFed Program
and should consider allowing new initiatives to be submitted on a single-page template for initial
consideration.

Response
The Commissioner, Small Business/Self-Employed Division, agreed with all of our
recommendations and will take or has already taken corrective actions. The FedFed Council
Inventory team is currently securing all of the updates to the FedFed Program database.
Management has added fields to the FedFed Program database to ensure it is complete. The
Commissioner, Small Business/Self-Employed Division, has agreed to include information in the
communication plan to track the progress and results of messages management disseminates.
The Commissioner, Small Business/Self-Employed Division, agreed to have the Governmental
Liaison Headquarters review the initiative process to determine the best consistent product to
facilitate ideas for the FedFed Program and FedState Program. Management’s complete
response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs) at (202) 622-5894.




                                                                                                 3
                     Positive Steps Have Been Taken to Enhance the Sharing of
                       Information Between Federal Agencies, but Additional
                                       Actions Are Needed




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Recognized the Need for Partnering
          With Other Federal Government Agencies ..................................................Page 3
          Progress Has Been Made in Achieving the Objectives of the
          FedFed Program............................................................................................Page 4
          Complete and Accurate Databases of Current FedFed Program Initiatives
          and Associated Contacts in Other Federal Government Agencies
          Need to Be Developed ..................................................................................Page 4
                    Recommendations 1 and 2: ..............................................Page 6

          The Current Strategy to Communicate the Existence and Objectives
          of the FedFed Program Needs to Be Improved ............................................Page 7
                    Recommendation 3:........................................................Page 8

          Simplifying the Initial Application Process May Encourage More Ideas
          for Initiatives.................................................................................................Page 9
                    Recommendation 4:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Management’s Response to the Draft Report ......................Page 15
        Positive Steps Have Been Taken to Enhance the Sharing of
          Information Between Federal Agencies, but Additional
                          Actions Are Needed




                        Abbreviations

GAO               Government Accountability Office
IRS               Internal Revenue Service
SB/SE             Small Business/Self-Employed
               Positive Steps Have Been Taken to Enhance the Sharing of
                 Information Between Federal Agencies, but Additional
                                 Actions Are Needed




                                     Background

Over the years, the Internal Revenue Service (IRS) has had experience in participating with other
Federal Government agencies in a variety of data-sharing initiatives and programs designed to
exchange data, reduce taxpayer burden, increase compliance, provide disaster assistance, etc.
Many of these initiatives or projects were part of longstanding agreements. However, until
recently, there was no formal agency-wide coordination of these relationships, and no established
structure was in place. To address this issue, the IRS approved the FedFed Program for
implementation.
The FedFed Program was formally introduced to division Commissioners by a memorandum
from the Deputy Commissioner for Services and Enforcement on March 22, 2006. This is
considered the official launch date of the FedFed Program. The Deputy Commissioner noted in
the memorandum that this Program would help ensure the IRS had a centralized process to
appropriately coordinate new Federal Government initiatives and to provide an agency-wide
inventory of current projects and initiatives. The memorandum included a request that the
division Commissioners ensure the current inventory of FedFed Program initiatives was updated
to include all existing initiatives and the information contained in the database was accurate.
Because the Governmental Liaison and Disclosure office under the Communications, Liaison,
and Disclosure function in the Small Business/Self-Employed (SB/SE) Division had an
established structure in place to promote interactions with State Government agencies, it was
given responsibility for the new FedFed Program. In addition, a version of the existing
FedState Program process was to be used to establish relationships with other Federal
Government agencies.
This audit is part of the discretionary audit coverage under our Small Business and Corporate
Programs unit and was one of the requests made by the Commissioner, SB/SE Division, for audit
coverage during this fiscal year. According to its web site, the FedFed Program’s goals are to:
   1. Provide a systematic approach to developing initiatives with other Federal Government
      agencies.
   2. Facilitate the development of initiatives.
   3. Allow the ownership of an initiative to remain with the business unit requesting that the
      initiative be established.
   4. Centralize the process to ensure initiatives with other Federal Government agencies are
      appropriately coordinated.
   5. Create a database listing contacts in other Federal Government agencies.



                                                                                          Page 1
               Positive Steps Have Been Taken to Enhance the Sharing of
                 Information Between Federal Agencies, but Additional
                                 Actions Are Needed



This review was performed at the Oklahoma City, Oklahoma, Governmental Liaison and
Disclosure office during the period December 2006 through April 2007. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                         Page 2
                 Positive Steps Have Been Taken to Enhance the Sharing of
                   Information Between Federal Agencies, but Additional
                                   Actions Are Needed




                                   Results of Review

The Internal Revenue Service Recognized the Need for Partnering
With Other Federal Government Agencies
The IRS had already established many working relationships with other Federal Government
agencies before the formal announcement of the FedFed Program in March 2006. These
agreements can be beneficial to the IRS and other Federal Government agencies. According to
an October 2005 Government Accountability Office (GAO) report,1 Federal Government
agencies estimated that they saved more than $900 million in program costs in Calendar
Year 2000 through data-sharing initiatives. The GAO also reported that data sharing between
the IRS and other Federal Government agencies has the potential to improve tax compliance. In
addition, its research showed certain data-sharing programs have value for increasing taxpayer
compliance because these programs have identified discrepancies in income reporting amounts
and, in some cases, enabled the assessment of additional dollars of unpaid taxes. In an effort to
realize some of these benefits, the IRS has worked to collaborate and establish relationships with
other Federal Government agencies.
In the same report, the GAO reported on the potential benefits of data sharing between the IRS
and the United States Citizenship and Immigration Services. The GAO reported the data sharing
could result in improved tax administration by the IRS, as well as improved immigration
decisions by the United States Citizenship and Immigration Services. Recent United States
Citizenship and Immigration Services meetings have explored information-sharing opportunities
with the FedFed Program Manager. In addition, the IRS already has agreements with the Social
Security Administration and recently met with that agency to discuss data sharing and obstacles
that need to be addressed. The IRS currently assists the Social Security Administration in
ensuring taxpayers get credit for all of their Social Security wages. These are just two of the
agreements the IRS has with other agencies.
The IRS has agreements with many other Federal Government agencies. The large number of
agreements provided the impetus to create a formal program that could manage the IRS’ existing
relationships with other agencies and new initiatives submitted by Federal Government agencies
and IRS operating divisions. The SB/SE Division took on the added responsibility of managing
current and future IRS agreements with other Federal Government agencies.



1
 Options Exist to Enable Data Sharing Between IRS and USCIS but Each Presents Challenges (GAO-06-100,
dated October 2005). USCIS - United States Citizenship and Immigration Services.
                                                                                                   Page 3
               Positive Steps Have Been Taken to Enhance the Sharing of
                 Information Between Federal Agencies, but Additional
                                 Actions Are Needed



Progress Has Been Made in Achieving the Objectives of the
FedFed Program
Since its inception in March 2006, the FedFed Program has had some significant achievements.
A FedFed Council was established to provide strategic guidance and to assist in the rollout of the
new Program. The Council has developed an informal communication and action plan that
identifies tasks to be accomplished. A FedFed Program instructor and student guides were
created. The instructor guide contains information covering the objectives in the student guide
and prompts the instructor to conduct local FedFed Program relationship case study discussions.
The student guide provides training for local government liaisons because FedFed Program
management believes the opportunity for growth of the Program remains at the field level. The
relationships that field governmental liaisons have with the local operating divisions and local
Federal Government agencies will provide a basis for the identification and development of
FedFed Program partnerships including data sharing, leveraging of resources, and educational
outreach opportunities. These local contacts can also identify potential problems that may have
national impact. In addition, a template was created for IRS employees to submit initiatives for
FedFed Program consideration; a Program team charter was developed; and meetings were held
with several Federal Government agencies, resulting in new agreements.
In 2006, a Commissioner’s award was given to the Governmental Liaison and Disclosure Office
for its work with internal partners and Federal and State Government agencies to develop
innovative approaches to address compliance efforts. The Commissioner’s award is a highly
prestigious award given to teams who have made a significant contribution to tax administration.
It is the highest honor bestowed by the Commissioner. Among the examples cited was the
FedFed Program, which “provides a systemic approach for developing initiatives with other
agencies, such as the State Department agreement to include social security numbers on passport
and visa applications.”
These accomplishments, combined with the additional improvements discussed in this report,
will help in the development of a viable FedFed Program to share data among Federal
Government agencies. This will help the IRS reduce taxpayer burden, increase compliance,
provide disaster assistance, and assist other Federal Government agencies with maximizing their
performance and results through improved collaboration.

Complete and Accurate Databases of Current FedFed Program
Initiatives and Associated Contacts in Other Federal Government
Agencies Need to Be Developed
An inventory of all IRS agreements with other Federal Government agencies was last completed
in July 2005. In March 2006, when the Deputy Commissioner for Services and Enforcement
announced implementation of the FedFed Program, the division Commissioners were requested

                                                                                           Page 4
                Positive Steps Have Been Taken to Enhance the Sharing of
                  Information Between Federal Agencies, but Additional
                                  Actions Are Needed



to review the existing database of Program initiatives and provide updates to ensure the database
was complete and accurate. A complete and accurate database of initiatives is vital to ensure
projects with other Federal Government agencies are properly coordinated and monitored.
However, as of April 2007, this verification and review had not been completed. Although the
initial request for updated information came from the Deputy Commissioner for Services and
Enforcement, no followup had been initiated from that level. More than a year after the initial
request, a formal memorandum was prepared from the Director, Communications and Liaison, to
the various IRS division Commissioners to request that their staffs ensure the information
entered in the FedFed Program database was updated and accurate. Previous followup requests
for assistance in completing the database had not resulted in completion of that task. Figure 1
illustrates the timeline for updating the FedFed Program database.
            Figure 1: Timeline for Updating the FedFed Program Database




Source: Our analysis of FedFed Program documents provided by the FedFed Program Manager.

The FedFed Program database needs to contain additional information including (but not limited
to) a project description; a current Memorandum of Understanding; current contacts and IRS
business owners of the initiative; and, if the project or initiative was not accepted, the reason for
rejection. The database does not currently contain a field to enter the reason an initiative was
rejected; this enhancement would improve Program efficiency. Rejected initiatives and the
reasons for rejection should be included because financial, legal, or technological circumstances
can change. An initiative that was rejected due to financial considerations may be reconsidered
if budgetary conditions change. Rejected initiatives should be visible, to avoid employee
submission of duplicate requests that cannot be enacted for specific reasons.




                                                                                              Page 5
                 Positive Steps Have Been Taken to Enhance the Sharing of
                   Information Between Federal Agencies, but Additional
                                   Actions Are Needed



In addition, we learned that 10 to 122 of the 160 initiatives being inventoried for the computer
database could not be cross-matched to a business unit owner. Because one of the stated
objectives of the FedFed Program is to allow ownership of an initiative to remain with the
business unit that requested the initiative be established, controls must be put in place in the new
database to address this situation.
Without having a complete and accurate inventory of agreements with other Federal Government
agencies incorporated into a database, and a separate database of associated contacts at the
various Federal Government agencies, the IRS could create duplicate initiatives and/or make
unnecessary contacts with other Federal Government agencies. In addition, if Federal
Government agencies are not actively working to share information, burden on taxpayers can be
increased through the increased cost of Government. In Fiscal Year 2000, Federal Government
agencies estimated they saved at least $900 million annually in program costs through
data-sharing initiatives.

Recommendations
Recommendation 1: The Deputy Commissioner for Services and Enforcement should
follow up to make sure each IRS division provides updates to ensure the FedFed Program
databases are complete and accurate.
         Management’s Response: IRS management agreed with the recommendation. As
         of July 23, 2007, the Director, Communications, Liaison, and Disclosure, issued a
         formal request to each operating division to update and validate the FedFed Program
         database. Operating divisions were asked to verify whether initiatives listed are
         current and complete, identify closed initiatives, and add any new initiatives. The
         FedFed Council has received 9 of 13 responses. The FedFed Council Inventory team is
         currently working to get the other responses and to load the received updates into the
         new FedFed Program Inventory database.
Recommendation 2: The FedFed Program Manager should ensure all key data elements are
included in the updated database, including the reasons for rejecting initiatives and the internal
business unit owners.
         Management’s Response: IRS management agreed with the recommendation,
         stating they have identified and made changes to the elements in the FedFed Program
         database so key information is available for proper coordination and monitoring. The
         updated database includes the following key fields: project description, business
         owners, current contacts, memorandum of understanding, project acceptance or


2
 This number range was provided by the IRS FedFed Program Manager; however, because the actual inventory has
not been completed, only an estimate could be given.
                                                                                                     Page 6
               Positive Steps Have Been Taken to Enhance the Sharing of
                 Information Between Federal Agencies, but Additional
                                 Actions Are Needed



        rejection, and reason for rejection. The additional fields recommended in this report
        have been included.

The Current Strategy to Communicate the Existence and Objectives of
the FedFed Program Needs to Be Improved
The IRS has taken steps to communicate the existence and objectives of the FedFed Program. A
communication plan was created that recognized future initiatives would originate from either
IRS divisions or other Federal Government agencies. As part of the communication and
marketing strategy, the IRS created informational webpages, flyers, and various internal
communication documents to inform its internal and external customers of the existence and
benefits of the FedFed Program. However, because the Program’s future success is heavily
dependent on these groups, communication with them needs to be emphasized.

Internal communications
Internally, the IRS needs a communication strategy that ensures all employees are informed of
the FedFed Program, its objectives, and its active initiatives. The IRS has no formal procedures
in the Internal Revenue Manual to inform employees what to do if they wish to submit an idea
for a FedFed Program initiative. Four recently updated Manual sections refer to Federal
Government initiatives, but only one mentions the FedFed Program directly, and their references
to a template are directed to the FedState Program template.
Not all IRS division Intranet web sites, which have become an important source of information
for IRS employees, have readily available or easily accessible information on the FedFed
Program. For example, both the Office of the National Taxpayer Advocate and the Large and
Mid-Size Business Division put significant information regarding the FedFed Program on their
Intranet sites. However, the SB/SE Division only circulated a newsletter regarding the new
FedFed Program to its employees, while the Office of Chief Counsel issued a one-time notice to
employees announcing the establishment of the FedFed Program. We were unable to identify
any significant communications regarding the FedFed Program made by the Wage and
Investment and the Tax Exempt and Government Entities Divisions.
If IRS employees are not aware of the FedFed Program and its benefits, they may contact other
Federal Government agencies without going through the IRS FedFed Program or may not be
suggesting ideas for information-exchange opportunities with other Federal Government
agencies. During our review, we were made aware of two instances in which IRS employees
contacted other Federal Government agencies without going through the FedFed Program
Manager. In addition, only one internal application for a new Program initiative has been
submitted since March 2006.



                                                                                          Page 7
               Positive Steps Have Been Taken to Enhance the Sharing of
                 Information Between Federal Agencies, but Additional
                                 Actions Are Needed



External communications
A similar strategy needs to be established for potential external FedFed Program partners. A
memorandum that would introduce other Federal Government agencies to the FedFed Program
and its potential benefits was scheduled to be completed by September 30, 2006. However, as of
April 2007, such a memorandum had not been approved or issued.
The FedFed Program Manager has met with seven Federal Government agencies to determine
what information is available for IRS use and what data the IRS can offer these agencies, and the
Program Manager plans to meet with three more agencies. Although other FedFed Program
officials have met with Federal Government agencies, the Program Manager has the majority of
the responsibility for meeting with other agencies and establishing working relationships. The
meetings have resulted in new agreements as well as the identification of problems and potential
new data sources. However, many Federal Government agencies still need to be contacted.
The FedFed Program Manager is physically located in Oklahoma City, whereas most of the
Federal Government agencies to be contacted are headquartered in Washington, D.C. For this
reason, it is important that the Program have a well-thought-out, formal communication plan
defining specific communications goals, methods of contact, frequency of contact, individuals
responsible, and methods for tracking progress and results. Potential budgetary restrictions on
Program spending make such a formal plan even more vital.
If other Federal Government agencies are not aware of the FedFed Program, both they and the
IRS could be missing opportunities to share valuable information, leverage resources, and
improve tax administration.

Recommendation
Recommendation 3: The Commissioner, SB/SE Division, should further develop the
communication plan to inform both internal and external stakeholders of the FedFed Program
and to solicit participation in the Program. The plan should define specific communication
goals, individuals responsible, and methods for tracking progress and results.
        Management’s Response: IRS management agreed with the recommendation.
        Management agreed to add to the FedFed Council Communications Plan the methods
        for tracking progress and the results of the messages they disseminate. They also stated
        the Plan does include communication goals, a list of responsible individuals, and
        messages to be delivered to both internal and external stakeholders. In addition to
        providing information about the FedFed Program to business units for posting to their
        Intranet web sites, the IRS has issued several IRS-wide communication products,
        including articles in the IRS Headlines, SB/SE Division Headline News, and
        Leader’s Alert. The Communications Sub-Team of the FedFed Council will continue to


                                                                                           Page 8
                Positive Steps Have Been Taken to Enhance the Sharing of
                  Information Between Federal Agencies, but Additional
                                  Actions Are Needed



        encourage participation in the Program by communicating the existence and objectives
        of the FedFed Program more effectively.

Simplifying the Initial Application Process May Encourage More Ideas
for Initiatives
The time and resources necessary to receive initial consideration for a FedFed Program initiative
may be precluding the development of new initiatives. The FedFed Program submission
template is a modified version of the FedState Program template. The FedFed Program version
has three separate and distinct sections and can require up to five pages of information.
The first part of the application must be completed for local initiatives such as special taxpayer
assistance days to assist victims of floods, hurricanes, or other natural disasters. The information
required is not substantial or complex and includes such items as the reason for the initiative,
identification of the participating Federal Government agency, the expected results, and how
those results will be measured.
The second part of the application must be completed when a proposed initiative “must be
reviewed at the operating division level and tested before it is approved.” It appears this section
must be completed for all information-sharing initiatives, as well as taxpayer assistance or
outreach efforts on a national scale. Much more detail is required in this section, and areas such
as labor relations issues, disclosure, information system certification, and resource requirements
must be addressed. The third part of the application, while needing more indepth information, is
required only for those initiatives that have been approved.
In many instances, a preliminary screening of an idea for a new initiative may reveal factors
preventing further development (e.g., disclosure issues regarding tax information,
incompatibility of information systems between two Federal Government agencies, or
insufficient funds available in the operating budget). However, an employee or unit within an
IRS division with an idea for a FedFed Program initiative must currently prepare and submit all
pertinent parts of the application. The FedFed Program Manager had not considered an
abbreviated version of the template to allow for initial screening of potential Program initiatives.
There has been only one FedFed Program initiative submitted internally since the Program was
established in March 2006. IRS employees and managers may not want to invest the time
necessary to fill out the entire document completely and accurately without an indication the
initiative has merit and can be pursued. As a result, the IRS may be missing opportunities to
increase compliance or decrease burden on taxpayers.




                                                                                             Page 9
               Positive Steps Have Been Taken to Enhance the Sharing of
                 Information Between Federal Agencies, but Additional
                                 Actions Are Needed



Recommendation
Recommendation 4: The Commissioner, SB/SE Division, should consider allowing new
FedFed Program initiatives to be submitted on a single-page template for initial consideration. If
the initiative is acceptable in regard to disclosure and/or budgetary considerations, then the full
application could be completed as required.
         Management’s Response: IRS management agreed with the recommendation,
         stating the Governmental Liaison Headquarters will be reviewing the process to
         determine the best consistent product to facilitate suggested ideas for both the
         FedFed Program and FedState Program.




                                                                                           Page 10
               Positive Steps Have Been Taken to Enhance the Sharing of
                 Information Between Federal Agencies, but Additional
                                 Actions Are Needed



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the SB/SE Division
FedFed Program is meeting its stated Program goals and objectives. To accomplish this
objective, we:
I.     Performed a risk assessment to identify any internal control weaknesses that needed to be
       included in our audit tests.
II.    Determined whether implementation actions for the FedFed Program assure intended
       Program goals and objectives will be achieved.
       A. Reviewed memoranda and interviewed key managers to determine the original
          reasons for the Program and its intended goals and objectives.
       B. Determined whether current Program goals and objectives are consistent with those
          envisioned.
       C. Evaluated whether sufficient controls have been established to measure the
          achievement of goals and objectives. We reviewed the established controls and any
          information systems for the Program, as well as documentation covering the
          implementation process.
       D. Reviewed Headquarters documentation of the establishment of the Program to
          determine whether there are any other significant areas that should be considered for
          inclusion in the Program.
       E. Reviewed pertinent documentation from the FedState Program to determine whether
          there are best practices that need to be adopted by the FedFed Program.
       F. Determined whether IRS managers have been surveyed by Program personnel to
          identify what data sharing they do with other Federal Government agencies, or what
          other initiatives they have with other agencies, and whether the initiatives have been
          included in the Program.
III.   Determined whether the FedFed Program is facilitating the development of initiatives
       with other Federal Government agencies and is effectively centralizing the process to
       ensure the initiatives are properly coordinated.
       A. Conducted interviews with the Headquarters SB/SE Division Program staff to obtain
          information on what actions have been taken to establish and develop initiatives with
          other Federal Government agencies. We obtained any relevant documentation

                                                                                         Page 11
        Positive Steps Have Been Taken to Enhance the Sharing of
          Information Between Federal Agencies, but Additional
                          Actions Are Needed



   including Internal Revenue Manual sections, memoranda, or meeting minutes that
   support the Program initiatives.
B. Conducted interviews with the Headquarters Program staff to determine the
   effectiveness of actions they are taking to coordinate all of the Program’s initiatives.
C. Obtained any relevant documentation or computer files that list all Program
   initiatives. In addition, we determined what controls are in place to avoid duplicate
   Program initiatives and reviewed the Program database for duplicates.
D. Determined whether the Program had created a database listing contacts with other
   Federal Government agencies. We reviewed the database to determine whether it
   contained complete contact and other significant information.
E. Obtained and reviewed Program procedures, manuals, memoranda, and guidance to
   determine whether there are sufficient controls in place to ensure the process is
   centralized.
F. Obtained any information, Internal Revenue Manual sections, reports, or documents
   regarding management’s Program initiatives that have already been established with
   other agencies to evaluate how agreements are monitored.




                                                                                    Page 12
               Positive Steps Have Been Taken to Enhance the Sharing of
                 Information Between Federal Agencies, but Additional
                                 Actions Are Needed



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle Anderson, Director
Bernard Kelly, Audit Manager
John Chiappino, Lead Auditor
Paul R. Baker, Auditor
Nancy Van Houten, Management Auditor




                                                                                        Page 13
              Positive Steps Have Been Taken to Enhance the Sharing of
                Information Between Federal Agencies, but Additional
                                Actions Are Needed



                                                                            Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 14
   Positive Steps Have Been Taken to Enhance the Sharing of
     Information Between Federal Agencies, but Additional
                     Actions Are Needed



                                                    Appendix IV

Management’s Response to the Draft Report




                                                              Page 15
Positive Steps Have Been Taken to Enhance the Sharing of
  Information Between Federal Agencies, but Additional
                  Actions Are Needed




                                                           Page 16
Positive Steps Have Been Taken to Enhance the Sharing of
  Information Between Federal Agencies, but Additional
                  Actions Are Needed




                                                           Page 17
Positive Steps Have Been Taken to Enhance the Sharing of
  Information Between Federal Agencies, but Additional
                  Actions Are Needed




                                                           Page 18
